No. 19-221

 

 

IN THE

Supreme Court of the United States

MICHELLE VALENT,
Petitioner,

Vv.
ANDREW M. SAUL,

COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF OF THE NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC. AS AMI-
CUS CURIAE SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,058 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 19, 2019.

 

Wilson-Epes Printing Co., Inc.
